No. _l

IN THE
SUPREME COURT OF THE UNITED STATES
SuPre

MICHAEL BETTS

— PETITIONER

AUR _

(Your Name)
vs.
UNITED STATES

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
MICHAEL BETTS
(Your Name)
F.C.I. HAZELTON P.0. BOX 200$
;snnn
(Address)

Bruceton Mills West Virginia, 26525
(City, State, Zip Code)

(Phone Number)

'7m

QUESTION(S) PRESENTED

Whether a police officer inquiring about drugs without reasonable
suspicion unconstitutionally broadens a traffic investigation.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

■3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

7

INDEX TO APPENDICES
APPENDIX A

United states court of appeals for th§ sixth circuit

File Name: 20a0178n.06
Filed Mar 27, 2020 No: 19-3163
rAPPENDIX BUnited States Court Of Appeals for the Sixth Circuit
Rehearing enbanc

No:19-3163

Filed Mayll, 2020

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

. t-

LIST OF PARTIES

m All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Berkemer v. McCurty (1984) 468 U.S. 420 82L Ed 2B 317, 104 S. ct. 3138
Dunaway v. New York (1979) 442 U.S. 200, 60 L Ed 2d 824, 995 S. ct'. 2248
Graham v. Connor (1989) 468 U.S. 386, 104 L Ed 2B 443, 109 S. ct. 1865
Hiibel v. Sixth Judicial Dist. Court of Nev.,

(2004) 159 LEa 2B 292, 124 S

ct 2451
Ohio v. Robinette (1996) 136 L Ed Hb 347, 117 S. Ct. 417
Terry v. Ohio (1968) 392 U.S. 1, 20 LEd 2b 889, 88 S. Ct. 1868

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER
^-QaTnrt7-8-15 FT2d-456,-!5»-(-eA3Hb98^

-^eopl-e-v^-Gex-r 202 Ill 2d 462, 78g-NE2d-225~£2eegtIllinois v.. Caballes, 543 U.S. 505, 408-09 (2005)
People v. Cox, 202 Ill 2d 462, 782 NE2d 275 (2002)

6

i

Rodriguez v. United States,;135, S. Ct. 1609, 191 L. Ed. 2d 492 (2015)
United States v. Quinn, 815 F.2d 153

STATUTES AND RULES

OTHER

159 (CA1 1987)

7
6

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

i_to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.

X

The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
•Was. March 77, 2020_________

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: May 1\I 2020
, and a copy of the
order denying rehearing appears at Appendix B
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

/

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fourth Amendment
The right of the people to be secure in their persons, houses, papers
and effects, against unresonable searches and seizures, shall not be violate
d, and no warrants shall issue, but upon probable cause, supported by Oath
or Affirmation, and particularly describing the place to be searched, and
persons or things to be seized.

§ 7. Permissible conduct pursuant to detention after stop
A law enforcement officer's conduct after making an investigatory
stop of a person under the Federal Constitution's fourth Amendment, the
Supreme Court has ruled, must be reasonably Delated in scope to the officers
i

justification for iMtiating the stop.

3

STATEMENT OF THE CASE
On November 28, 2016 an identified citizen called 911 and reported
suspicious activity in the parking lot of Suburban Market in Salem Ohio.
Officer Donald Paulin initiated an investigative detention while observing
Betts talking on his cell phone. Paulin ran a check on Betts's license
plate, identification, and nin number to the vehicle. Within a few minutes
Officers learned that the license plates was invalid and needed to be conf­
iscated. Officers also learned

that Betts did not have a license, that the

car was not stolen, that he had no warrents and the shop had not been burg­
larized. Betts provided the address he was looking for on Arch Street apon
request. Betts also provided the name of the female whom resided at the
address he provided. Not knowing if Betts was looking for a drug house in
Salem, officers on the scene called for a police dog. Abandoning the traf­
fic investigation.
Roughly five minutes after the call canine handler Michael Garber
arrived with his police dog Simon. After being provided the

address Betts

was looking for Canine Handler Michael Garber told officers on the scene
that the address was in neighboring Alliance Ohio. However, Offericers on
the scene insisted that he run the dog.
"We have a dog we may as- well use it"
Apon doing the sniff of the vehicle Canine Simon alledgedly alerted to the
presence of contraband. Officers then searched the vehicle without Betts's
consent and found drugs and a loaded firearm. Betts was charged under Ohio law with weapons under disability. The state o<fl Ohio dismissed the charges
and Betts was indicted under federal law with possession with intent to

4

distribute and felon in possession of a firearm. Betts moved to suppress
the evidence on fourth amendment grounds. The District Court denied Betts's
motion to suppress and a jury convicted Betts. Betts then appealed to The
United States Court of Appeals for the Sixth Circuit. The court of appeals
affirmed the judgement of the district court. Betts later filed a timely
petition for rehearing with the court of appeals and was denied on May 11,
2020.

5

REASONS FOR GRANTING THE PETITION

Ihe United States Court of Appeals for the Sixth Circuit has enter­
ed a decision in conflict with another United States Court of Appeals on
the same important matter. Let's take United States v. Quinn for example,
in United States v. Quinn, 815 f.2d 153, 159 (CA1 1987) it was ruled that
"Officers must have reasonable suspicion that a car contains
narcotics at the moment a dog sniff is performed."
Second, The united states court of appeals for the sixth circuit
has decided an important federal question in a way that conflicts with a
decision by a state court of last resort. In People v. Cox, 202 Ill 2d 46?
782 NE2d 275 (2002), the court ruled inthat cAse that
"The police did not detect the order of marijuana in the car or note
any other evidence suggesting the presence of illegal drugs'.'
Ibid. Lacking "specific and articulable facts" supporting the canine
sniff, ibid, (quoting Cox, 202 Ill 2d, at 470-471, 782 NE2d, at 281),
"the police impermissibly broadened the scope of the traffic stop
in this case into a drug investigation."
In the instant case United States v. Betts file name: 20a0178n.06. The
C-aaene sniff was justified because it occured while officers awaited a
tow truck that was never called for by police. It is this reason that the
decision of the lower couet is erroneous. In a dessenting opinion in Ill­
inois v. Caballes, 543 U.S. 405, 408-09 (2005). Justice Souter said that
"The government may not take advantage of a suspectls immobility
to search for evidence unrelated to the reason for the detention.':'
Futhermore, the lower court failed to apply Terry's reasonablerelation test, which instructs that the officers actions must be reasonably
related in scope to the circumstances which justified the interference in
the first place; it also encompasses the manner in which the seizure is
conducted. The actions of the officers on the night of November 28, 2016
has so far departed from the accepted and usual course of judicial proc­
eedings as to call for an excercise of this court's supervisory power.
6

Lastly, the court of appeals hasdecided an important federal question
in a way that conflicts with relevent decisions of this court. e.g. see
. Redriquex Rodriguez, 575 U.S. at 354.
(Authority for the seizure thus ends when tasks tied to
the traffic infraction are-or reasonably should have beencompleted.)
The qusetion to the Supreme Court is of nation importance because it draws
the line between reasonable and unreasonable.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

Ay

7

